August 22, 2008

JERRY D. LANE
VICE PRESIDENT, CAPTIAL METRO AREA OPERATIONS

SUBJECT: Audit Report – Fiscal Year 2008 Capital Metro Area SmartPay
         Purchase Card Program (Report Number FF-AR-08-270)

This report presents the results of our audit of SmartPay Credit Card purchases by
personnel in the Capital Metro Area (Project Number 08BD006FF001). This audit is
part of the Fiscal Year 2008 Financial Installation Audits we announced on August 14,
2007. This audit addresses financial risk. Click here to go to Appendix A for additional
information about this audit.

Conclusion

Generally, cardholders supported Capital Metro Area SmartPay Purchase Card
Program purchases and complied with U.S. Postal Service policies and procedures.
However, the credit card reconciliation process needs improvement.

Monthly Reconciliation Procedures Needed Improvement

Cardholders and approving officials did not follow monthly reconciliation procedures.
Unauthorized or inaccurate transactions could go undetected when cardholders and
approving officials do not reconcile bank statements as required. Specifically:

    •   All seven cardholders certified, but did not date, 27 of 70 bank statements totaling
        $76,541.

    •   The cardholder did not certify or date another bank statement totaling $7,396.

    •   The approving official certified a bank statement totaling $725, but did not do so
        within 30 days of the reconciliation due date.

Postal Service policy requires cardholders to certify the statement of account after
review and reconciliation by signing and dating the certification statement.1 The policy
also requires cardholders and approving officials to complete all reconciliation activities

1
  Handbook AS-709, Credit Card Policies and Procedures for Local Buying, Section 421.d, October 2003 (updated
through October 26, 2006).
Fiscal Year 2008 Capital Metro Area SmartPay Purchase                                            FF-AR-08-270
 Card Program


no later than the 18th of the month for the previous month’s card activity.2 Cardholders
stated they did not date the bank statements because they were not aware of policy
related to the modified bank statements.3 The cardholder did not certify one bank
statement as he had overlooked it. Finally, the approving official did not timely reconcile
the bank statement due to untimely receipt of cardholder documentation.

Recommendation

We recommend the Vice President, Capital Metro Area Operations:

1. Reinforce Postal Service policy relating to reconciliation and certification by signing,
   dating, and timely forwarding and reconciling bank statements.

Management’s Comment

Management agreed with our finding and recommendation and redistributed
headquarters and area policy to all cardholders and approving officials within the Capital
Metro Area Operations clarifying responsibilities. In addition, management stated the
Accounting Manager held a meeting on August 15, 2008, with Capital Metro Area office
cardholders and approving officials to reinforce the reconciliation and certification
process. We have included management’s comments in their entirety in Appendix B.

Evaluation of Management’s Comments

The U.S. Postal Service Office of the Inspector General (OIG) considers management’s
comments responsive to the recommendation, and the corrective actions should resolve
the issue identified in the finding.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact John Wiethop, Director, Field
Financial Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments


2
  Officer Memorandum of Policy GSA Smart Pay Purchase Card Reconciliation Process Time Change,
January 4, 2008.
3
  The modified bank statements did not have a date section for cardholders.




                                                     2
Fiscal Year 2008 Capital Metro Area SmartPay Purchase   FF-AR-08-270
 Card Program



cc: Susan M. Brownell
    Lynn Malcolm
    Vincent H. DeVito, Jr.
    Marie Martinez
    Stephen J. Nickerson
    Steven A. Darragh
    Katherine S. Banks




                                                   3
Fiscal Year 2008 Capital Metro Area SmartPay Purchase                          FF-AR-08-270
 Card Program



                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Since November 1991, the Postal Service has used the government-wide Commercial
Credit Card Program administered by the General Services Administration. The current
contractor is U.S. Bank, Minneapolis, Minnesota, and the card company is VISA®. The
program within the Postal Service is called the SmartPay Purchase Card Program,
which Supply Management and Finance cosponsor. The Postal Service pays no
administrative fees for the services U.S. Bank provides and earns refunds based on the
aggregate volume of Postal Service transactions. Until recently, the purchase card was
commonly referred to as the International Merchant Purchase Authorization Card
(IMPAC). This was a registered U.S. Bank trademark name, but the bank no longer
uses it.

When eBuy or other consolidated Finance-approved payment processes are not an
option, the purchase card is the primary delegated local buying authority (the authority
to buy and pay for day-to-day operational needs). Generally, a single purchase card
transaction may not be greater than $10,000.

Cardholders, approving officials, and program coordinators must follow the purchasing
guidelines for approved expenditures set by the Postal Service in Handbook AS-709,
Credit Card Policies and Procedures for Local Buying, and various manuals,
handbooks, management instructions, and locally issued guidance. This guidance
requires cardholders to maintain documentation, including approved purchasing
requests, sales and credit drafts and receipts, and delivery documentation. In addition,
guidance issued January 4, 2008, requires cardholders to maintain documentation
supporting the timely review of monthly statements by cardholders and approving
officials.4

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if SmartPay Purchase Card Program
purchases were supported and complied with Postal Service policies and procedures.
To accomplish this objective, we selected all transactions using the xxxxxxxxxxxx
xxxxxxx xxxx xxx Xxxxxxxxxx Xxxx Xxxxxxxx xxx xxxxxxx xxxxx xxxxxx xxxxxxx xxxxxx.
This approach resulted in a universe of 418 SmartPay Purchase Card purchase
transactions totaling $187,444. Our transactions included only those cardholders
assigned to the Capital Metro Area. We did not include in our sample cardholders who
were reassigned, retired, or on extended leave. Accordingly, we sorted the data by




4
    See footnote number 1.




                                                   4
Fiscal Year 2008 Capital Metro Area SmartPay Purchase                                                FF-AR-08-270
 Card Program


cardholder and reviewed all 418 transactions totaling $183,872 made by seven
cardholders from June 2007 through May 2008.5

We conducted this financial audit from June through August 2008 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our finding and conclusions based on our audit objective.
We believe the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objective. We discussed our observations and
conclusions with management officials on July 23, 2008, and included their comments
where appropriate.

We relied on data obtained from the Postal Service’s Enterprise Data Warehouse
Accounting Data Mart, and performed specific internal control and transaction tests on
this system’s data to include tracing selected purchase transactions to supporting
documentation. We used Postal Service instructions, manuals, policies, and
procedures as criteria to evaluate internal controls and data reliability. Finally, we
interviewed supervisors and employees and observed operations.




5
  One cardholder on extended leave had one transaction. We removed that cardholder from our audit, bringing the
total universe of transactions to 417. However, during the audit, we found another cardholder had two transactions
for one combined bank statement amount. This increased our universe from 417 transactions back to 418. Further,
these changes altered the dollar value of our universe.




                                                         5
Fiscal Year 2008 Capital Metro Area SmartPay Purchase                                               FF-AR-08-270
 Card Program



PRIOR AUDIT COVERAGE

                                                   Final                    Non-
                                    Report        Report       Monetary   Monetary
         Report Title               Number         Date         Impact     Impact            Report Results
Fiscal Year 2007 Financial                                                           Cardholders did not prepare or
Installation Audit – SmartPay                                                        maintain proper documentation
Purchase Card Program for                                                            for eAward purchases and did
Local Buying – Northern                                                              not obtain proper approval for
                                  FF-AR-08-027   11/15/2007      $5,651    $95,521
Virginia District – Merrifield,                                                      transactions. Also, cardholders
Virginia                                                                             and approving officials did not
                                                                                     follow monthly reconciliation
                                                                                     procedures.
Fiscal Year 2007 Financial                                                           Cardholders did not follow
Installation Audit – SmartPay                                                        proper payment methods and
Purchase Card Program –                                                              purchase limits for transactions.
                                  FF-AR-08-023   11/7/2007      $45,705    $20,011
Richmond District, Richmond,                                                         Gift card award and monthly
Virginia                                                                             reconciliation procedures were
                                                                                     not followed.
Fiscal Year 2007 Financial                                                           Cardholders did not maintain
Installation Audit – SmartPay                                                        supporting documentation for
Purchase Card Program for                                                            transactions. Also, cardholders
Local Buying – Baltimore                                                             purchased prohibited services
District – Baltimore, Maryland                                                       and did not follow purchasing
                                  FF-AR-08-022   11/7/2007      $70,485    $85,346
                                                                                     procedures for transactions.
                                                                                     Further, cardholders and
                                                                                     approving officials did not
                                                                                     follow monthly reconciliation
                                                                                     procedures.
Fiscal Year 2007 Financial                                                           Cardholders did not obtain
Installation Audit – SmartPay                                                        proper approval for transactions
Purchase Card Program for                                                            and purchased prohibited
Local Buying (purchase card)                                                         services. Also, cardholders did
– Capital District, Washington,                                                      not maintain supporting
                                  FF-AR-07-251   9/27/2007      $93,938         $0
DC                                                                                   documentation for transactions.
                                                                                     Further, cardholders and
                                                                                     approving officials did not
                                                                                     follow monthly reconciliation
                                                                                     procedures.



These reports identified various internal control and compliance issues, such as
unapproved, unsupported, or unauthorized purchases. Also, as stated in the above
table, we identified a common issue related to reconciliation procedures. We identified
the same issue in this report.




                                                           6
Fiscal Year 2008 Capital Metro Area SmartPay Purchase        FF-AR-08-270
 Card Program


                         APPENDIX B: MANAGEMENT’S COMMENTS




                                                   7
Fiscal Year 2008 Capital Metro Area SmartPay Purchase   FF-AR-08-270
 Card Program




                                                   8
Fiscal Year 2008 Capital Metro Area SmartPay Purchase   FF-AR-08-270
 Card Program




                                                   9
Fiscal Year 2008 Capital Metro Area SmartPay Purchase   FF-AR-08-270
 Card Program




                                                  10
